APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM/VISA CLASSIC

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

1.90% Introductory APR for a period of six billing cycles.
After that, your APR will be

8.90%.

Visa Classic

10.50%
APR for Balance Transfers

Visa Platinum
1.90% Introductory APR for a period of six billing cycles.
After that, your APR will be 8.90%.
Visa Classic
10.50%

APR for Cash Advances

Visa Platinum
10.50%
Visa Classic
10.50%

How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Your due date is an average of 30 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Up to 1.00% of each transaction in U.S. dollars
Up to $20.00
Up to $15.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Visa Platinum:
The Introductory APR for purchases and balance transfers will apply to transactions posted to your account during the first
six months following the opening of your account. Any existing balances on Fibre Federal Credit Union loan or credit card
accounts are not eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: October 03, 2017
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

14605268-MXC10-P-1-092017 (MXC101-E)

For California Borrowers, the Visa Platinum and Visa Classic are secured credit cards. Credit extended under this
credit card account is secured by various personal property and money including, but not limited to: (a) any
goods you purchase with this account, (b) any shares you specifically pledge as collateral for this account on a
separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union
excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Returned Payment Fee:
$15.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.
Document Copy Fee:
$20.00.
Rush Fee:
$50.00 second day. $80.00 overnight.
Unreturned Card Fee:
$2.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

14605268-MXC10-P-1-092017 (MXC101-E)

